OFFICE OF INSPECTOR GENERAL

             Audit Report

Implementation of Selected Requirements for
  Government Charge Card Programs at the
        Railroad Retirement Board



             Report No. 08-02
              May 14, 2008




RAILROAD RETIREMENT BOARD
                                        INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review
of the Railroad Retirement Board’s (RRB) implementation of selected
requirements of Office of Management and Budget (OMB) Circular A-123,
Appendix B, “Improving the Management of Government Charge Card
Programs.”

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and
their families under the Railroad Retirement Act (RRA) and the Railroad
Unemployment Insurance Act (RUIA). These programs provide income
protection during old age and in the event of disability, death, temporary
unemployment, or sickness. The RRB paid over $9.8 billion in benefits during
fiscal year (FY) 2007.

The General Services Administration (GSA) has initiated a government-wide
charge card program, GSA SmartPay, to provide agencies with an easy solution
for making smaller purchases. GSA has contracted with commercial banks to
provide credit card services to Federal agencies. The program includes
purchase cards to pay for commercial goods and services as well as travel cards
to be used for governmental travel expenses. Citibank is the credit card issuer
for the RRB’s program.

Under GSA SmartPay, the RRB authorizes issuance of purchase cards to
agency organizational units and individuals who are authorized to purchase
goods and services. All purchase card charges are billed directly to the RRB
which is responsible for payment.

The RRB also issues travel cards to employees who travel frequently. All travel
card charges are billed directly to the employee who is responsible for payment.
Travel card holders are responsible for payment to the card issuer and may
request reimbursement of authorized expenses through the RRB’s established
reimbursement process.

The RRB reported that, as of the end of FY 2007, approximately 10 percent of
the RRB’s staff were purchase card holders and 23 percent were travel card
holders. The cardholders charged approximately $447,000 on purchase cards
and $525,000 on travel cards in FY 2006. Through the first ten months of
FY 2007, cardholders charged approximately $328,000 to purchase cards and
$386,000 to travel cards. 1

1
    The latest information reported by GSA for FY 2007 (as of January 22, 2008).


                                                 1
OMB issued OMB Circular A-123, “Management's Responsibility for Internal
Control” which defines management’s responsibility for internal control in Federal
agencies. The Circular provides a central reference point for guidance to Federal
managers on improving the accountability and effectiveness of Federal programs
and operations by establishing, assessing, correcting, and reporting on internal
control. In August 2005, OMB issued Appendix B to OMB Circular A-123
(Appendix B) “Improving the Management of Government Charge Card
Programs” which became effective for FY 2006. The goal of Appendix B is to
maximize benefits to the Federal government when using government charge
cards to pay for goods and services in support of official Federal missions.

The RRB's Office of Administration (OA) is responsible for authorizing Citibank to
issue purchase and travel cards and providing oversight to the program. The
Bureau of Fiscal Operations (BFO) is responsible for processing authorized
payments to all agency vendors, including Citibank.

This audit supports the RRB in meeting its second strategic goal to “Serve as
Responsible Stewards for Our Customers’ Trust Funds and Agency Resources.”

Objective, Scope, and Methodology

The objective of this audit was to assess the RRB’s compliance with selected
requirements of Appendix B to OMB Circular A-123. We assessed compliance
with the provisions that require Federal agencies with government charge card
programs to:
    ♦ develop a charge card management plan;
    ♦ develop and maintain written policies and procedures for the appropriate
      use of charge cards;
    ♦ provide training on charge card management;
    ♦ implement risk management controls, policies, and practices;
    ♦ retain and report data related to charge card management programs;
    ♦ assess creditworthiness of travel card applicants; and
    ♦ make a good faith effort to recover taxes paid to state and local
      governments.

The scope of this audit was RRB travel and purchase card activity as billed to the
agency during October 2005 through April 2007.

To accomplish our objective we:
   ♦ interviewed responsible management and staff;
   ♦ identified pertinent RRB policies and procedures, Federal laws,
     regulations, and guidance;


                                        2
   ♦ reviewed and documented the Citibank application process including the
     application form, account agreement, and travel card guide;
   ♦ reviewed monthly administrative reports from September 2005 through
     March 2007;
   ♦ reviewed RRB initiatives and efforts to strengthen controls over charge
     card usage;
   ♦ obtained and reviewed charge card statistics published by GSA for
     FY 2006 and FY 2007;
   ♦ obtained and reviewed reports of cardholders usage prepared by Citibank
     for the billing cycles included in the scope of the audit;
   ♦ reviewed a sample of purchase card transactions as described in
     Appendix I to this report;
   ♦ assessed the extent of cardholder and management training as described
     in Appendix II of this report;
   ♦ identified and tested controls over lost or stolen charge cards, separated
     employees, and the reasonableness of charge card limits;
   ♦ reviewed declined transaction authorizations for the period
     September 24, 2005 through March 23, 2007;
   ♦ documented the purchase card certification process for two administrative
     officers;
   ♦ reviewed transaction activity for several cardholders who had been
     identified in the delinquent payment report for July 2007; and
   ♦ compared the RRB charge card program with the specific requirements of
     Appendix B to OMB Circular A-123 and determined whether the program
     had been implemented as designed.

This review was conducted in accordance with generally accepted government
auditing standards as applicable to the objective. We performed the fieldwork at
the RRB headquarters in Chicago, Illinois from April 2007 through October 2007.
Additional procedures were performed in March, 2008, to verify the
completeness of purchase card transactions provided to us by agency officials.




                                       3
                             RESULTS OF REVIEW

The RRB has experienced some delays in implementing the requirements of
Appendix B to OMB Circular A-123. The agency:
    ♦ has developed and maintains written policies and procedures for the
      appropriate use of charge cards;
    ♦ has implemented risk management controls, policies, and practices;
    ♦ retains and reports data related to its charge card management
      programs;
    ♦ assesses creditworthiness of travel card applicants; and
    ♦ has adequately addressed the requirement to make a good faith effort to
      recover taxes paid to state and local government by adopting a strategy
      of avoiding payment of such taxes to minimize the agency’s exposure to
      excess payments.

However, the RRB has not yet complied with Appendix B requirements for
preparation and submission of a charge card management plan and has not
ensured that training on charge card management is provided to program
participants prior to appointment. We also noted that risk management controls
do not include procedures to identify misuse of government travel cards and that
additional controls are needed over confidential information.

The Office of Administration has agreed to take the recommended corrective
action. No recommendations were directed to the Bureau of Fiscal Operations;
however, they reviewed the draft report and had no comments. The full text of
their responses is included as Appendices III and IV to this report. The details of
our findings and recommendations for corrective action follow.


Agency Charge Card Management Plan is Pending

The RRB has not yet complied with the requirement of Appendix B to OMB
Circular A-123 to submit a comprehensive charge card management plan.

Appendix B requires Federal agencies who have implemented government
charge card programs to submit a management plan to OMB annually, not later
than January 31st of each calendar year. The first such plan was due on January
31, 2007.

The RRB has not yet submitted its first management plan to OMB and attributes
the delay to pending revisions to the agency’s system of administrative circulars.
The agency believed that these new policies and procedures would supplement
existing policies and procedures to meet all of the management plan
requirements of Appendix B.


                                         4
During our audit, we reviewed current published policies and procedures for the
charge card program. 2 In addition, management provided us with drafts of the
pending circulars. Although these policies and procedures include many of the
elements required by Appendix B, they do not address the following
requirements:
    ♦ management controls for ensuring appropriate charge card usage;
    ♦ implementation of policies and practices to ensure strategic sourcing;
    ♦ explanation of how available reports will be used for monitoring
      transactions; and
    ♦ a description of how the agency will ensure the ongoing effectiveness of
      actions taken pursuant to the guidance in Appendix B.

The RRB cannot be fully compliant with the requirements of Appendix B until it
completes and submits the required management plan for the charge card
program. In addition, lack of a comprehensive management plan adversely
affects the agency’s ability to ensure that the charge card program is effectively
and efficiently managed.

Recommendation

We recommend that the Office of Administration:

    1. finalize its management plan and submit it to OMB in accordance with the
       requirements of Appendix B to OMB Circular A-123.

Management’s Response

The Office of Administration advised us that they completed the management
plan in the form of two Administrative Circulars that were approved by the Board
in March 2008. However, recent guidance from OMB now requires that those
circulars be updated. The revised management plan will be submitted to OMB
by January 31, 2009.


Delays Experienced in Performing Creditworthiness Assessments

The RRB experienced delays in implementing the creditworthiness assessments
required by Appendix B to OMB Circular A-123 which requires that Federal
agencies conduct creditworthiness assessments for all new, individually billed,
government travel card accounts issued on or after October 1, 2005.

2
 "Procedures for Using the Government-Wide Commercial Credit Card Service," August 2004;
"VISA TRAVEL CHARGE CARD PROCEDURES," August 2002.



                                             5
During our audit, we identified 19 individuals who received government travel
cards during the period October 1, 2005, through March 31, 2007, for whom the
RRB had not completed a creditworthiness assessment prior to authorizing
Citibank to issue a charge card.

The RRB did not perform timely creditworthiness assessments because of delays
in the design and implementation of a form to secure applicant authorization to
obtain credit information. As a result, the RRB issued travel cards that did not
conform to agency cardholder requirements. The agency subsequently
performed creditworthiness assessments which resulted in cancellation of one
employee’s cardholder privileges and the reduction of four employees’ credit
limits.

During our audit, the RRB established policies and procedures to perform
creditworthiness assessments prior to issuing new travel cards. Accordingly, we
make no recommendation for further corrective action at the present time.


Improvement Needed to Ensure Timely Training

The RRB has not complied with requirements to ensure that all participants in the
travel card program receive adequate training in their responsibilities under the
program.

Appendix B to OMB Circular A-123 requires that all program participants be
trained in charge card management prior to appointment. This requirement
applies to cardholders, charge card managers, and billing officials. To meet this
requirement, RRB employees can take GSA Government Travel Card Training
via the internet which provides a certificate of completion.

During the period October 2005 through March 2007, the RRB issued 19 new
travel cards. We requested training certificates for 10 of the 19 employees to
whom cards were issued and determined that 8 of those 10 employees had not
completed the required training prior to obtaining their cards. In addition, the
RRB’s Designated Billing Official, who was appointed on March 11, 2005,
assumed his responsibilities without having taken training in charge card
management and had not completed such training as of October 31, 2007.

In general, program participants did not receive timely training because the RRB
issued travel cards without requiring proof of training. Lack of training increases
the risk of inappropriate, abusive, and/or unauthorized purchases in the charge
card program.




                                         6
Recommendations:

We recommend that the Office of Administration:

   2. establish controls to ensure that travel card applicants complete training
      prior to issuance of travel cards; and
   3. ensure that the Designated Billing Official completes the required training
      as soon as possible.

Management’s Response

The Office of Administration has agreed to implement these recommendations.
In response to recommendation #2, the Office of Administration advised us that
effective immediately, they will ensure that training is completed before issuing a
travel card. In response to recommendation #3, the Office of Administration
advised us that the Designated Billing Official has completed the required
training.


Additional Controls Needed to Identify Misuse

The RRB needs to develop controls to identify misuse of government issued
travel cards.

Appendix B to OMB Circular A-123 provides in part that agencies are required to
establish management controls, policies, and practices for ensuring appropriate
charge card usage and oversight of payment delinquencies, fraud, misuse, or
abuse. Appendix B provides the following definition of misuse: “Use of a Federal
charge card for other than the official government purpose(s) for which it is
intended.” Charge card managers are responsible for ensuring that charge cards
are used for authorized purchases or expenses only. In carrying out these
activities, charge card managers are required to ensure that the agency has
policies in place that require managers to review charge card reports, as
appropriate.

RRB procedures provide that: “The Government travel charge card may be used
only for authorized official travel and authorized travel related expenses. Official
travel related expenses are transportation, lodging, meals, and incidentals. The
travel charge card may not be used for personal expenses at any time.” Travel
card applicants agree to the terms and conditions of the Citibank Cardholder
Account Agreement including a statement that, “I agree to use the Card only for
official travel and official travel related expenses away from my official
station/duty station in accordance with my Agency/Organization policy. I agree
not to use the Card for personal, family or household purposes.”




                                         7
During our audit, we identified an RRB employee who had made a large number
of personal charges on his government-issued travel card. Most of the
purchases were made at gas stations and restaurants. These personal
purchases were made during the period August 27, 2006, through
March 18, 2007. Some of these improper purchases went undetected for over a
year. Concurrent with our audit, RRB management had been evaluating the
status of the cardholder’s account after it became delinquent. Subsequently,
RRB management referred the matter to the employee’s supervisor and
cancelled the employee’s travel card.

The RRB does not have an effective procedure requiring that travel card usage
be reviewed periodically to identify personal use. Without effective controls,
practices, and procedures to ensure appropriate charge card usage and integrity
of the charge card program, fraud, misuse, or abuse of the travel cards can go
undetected.

Recommendation

We recommend that the Office of Administration:

   4. establish controls that provide for periodic review of travel card usage to
      ensure appropriate usage of the travel cards and identify misuse.

Management’s Response

The Office of Administration has advised us that the SmartPay2 contract, which
will be effective November 30, 2008, will provide the additional control necessary
to ensure appropriate usage of the travel cards and identify any misuse.


Additional Controls Over Confidential Information

The RRB faxes travel charge card applications with personally identifiable
information such as names, Social Security Numbers, and addresses to Citibank
without a cover sheet.

The RRB’s “Rules of Behavior for General Support Systems” (RRB Form G-5)
provides that access to confidential, sensitive, or personally identifiable
information be restricted to authorized individuals who need it to perform their
jobs. This entails refraining from intentional disclosure and using measures to
guard against accidental disclosure. It further provides that employees should
“ensure that sensitive information sent to a fax or printer is handled in a secure
manner; e.g., use of a cover sheet that contains a statement that the faxed
information is confidential.”




                                         8
The RRB’s credit card program coordinator had not believed that it was
necessary to use cover sheets because Citibank, the credit card issuer, has a
secure fax line for transmission of all RRB credit card applications. However,
since the recipient of the fax is not alerted that the fax contains sensitive
information, the recipient may not provide adequate security at the receiving end
and there is a potential for unauthorized disclosure.

Recommendation

We recommend that the Office of Administration:

   5. ensure that a cover sheet indicating that the information being sent
      contains confidential information when sending travel card applications.

Management’s Response

The Office of Administration has advised us that they will use a cover sheet for
travel and purchase cards, effective immediately.




                                        9
                                                                      Appendix I
                 SAMPLING METHODOLOGY AND RESULTS

Sampling Objective

To determine whether selected transaction-based provisions of the RRB’s
purchase card program have been implemented as designed.

Sampling Unit

The sampling unit is defined as one purchase card transaction.

Sample Universe

The universe consisted of 1,582 purchase card transactions dated
September 26, 2005 through March 22, 2007, which were downloaded by the
Office of Administration from the Citibank’s website and provided to the OIG.

Sample Size

We selected 42 transactions for detailed testing.

Sample Selection Method:

We used judgment sampling in order to control for amount and type of
transactions that would be subject to review. We selected individual transactions
for review based on:
      •   high dollar transactions above $3,000;
      •   unusual vendor names; and
      •   unusual merchant category codes.

Sample Results

                                                                     Non-
                                       Transactions  Compliant    Compliant
        RRB Requirement                 Reviewed    Transactions Transactions
   1) Each cardholder statement           42           41           1
      must be approved by the
      responsible official or
      designated alternate.
   2) Each cardholder statement           42            42             0
      must be signed by the
      cardholder.




                                        10
                                                                                    Appendix I
                         SAMPLING METHODOLOGY AND RESULTS

                                                                                   Non-
                                                     Transactions  Compliant    Compliant
             RRB Requirement                          Reviewed    Transactions Transactions
       3) Each purchase must be                         42           42           0
          within an approved Merchant
          Category Code or individually
          approved by the RRB’s
          charge card program
          coordinator.
       4) No purchase may be of a                         42                  42     0
          type specifically prohibited by
          agency procedure.
       5) The amount of purchase may                      42                  42     0
          not exceed the cardholders
          approved single transaction
          limit.
       6) The purchase amount may                         42                  42     0
          not exceed $25,000 except
          as specifically authorized for
          agency purchasing
          specialists.
       7) The purchase should exclude                     42                  40     2
          sales and local taxes.
       8) Purchases over $3,000 must                        63                  5    1
          be supported by evidence of
          competitive bidding where
          required.
       9) Purchase must be supported                      42                  41     1
          by required documentation,
          i.e. charge card slip, invoice,
          etc.

During our review of supporting documentation, we also considered whether
there was any indication of fraud or abuse related to the purchase.

Conclusion:

Transaction-based provisions of the RRB’s purchase card program have been
properly designed and implemented as designed. Although we identified
instances where procedures were not followed, non-conformance was infrequent.
We brought the specifics of these exceptions to management’s attention during
our audit.



3
    Only 6 of the 42 transactions in our sample were subject to this requirement.


                                                       11
                                                                       Appendix II
                  SAMPLING METHODOLOGY AND RESULTS

Sampling Objective

To determine if RRB credit card applicants had received training in travel card
management for government travel cards issued after October 1, 2005.

Sampling Unit

The sampling unit is defined as one travel card applicant.

Sample Universe

The universe consisted of 19 applicants who were issued new government travel
cards during the period October 1, 2005 through March 31, 2007.

Sample Size

We selected 10 applicant files for detailed testing.

Sample Selection Method:

We used judgment sampling to select 10 files from the universe to determine if
the file contained certificates evidencing completion of required training.

Sample Results

Our review showed that 8 of the 10 applicants had not received the required
training prior to obtaining their credit cards.

Conclusion:

The RRB has not established procedures to ensure that participants in the travel
card program have received timely training in travel card management.




                                         12
                                                                             Appendix III
                                                                                  FORM G-llSf (1-92)
                UNITED STATES GOVERNMENT
                                                                 RAILROAD RETIREMENT BOARD
                MEMORANDUM
                                                                          May 5, 2008



TO	          Letty Benjamin Jay
             Assistant Inspector General for Audit


FROM
                                            ior Executive Officer


SUBJECT:	 Draft     eport - Audit ofRRB's Charge Card Program


The Office of Administration appreciates the opportunity to comment on the draft report,
"Audit ofRRB's Charge Card Programs." There has been a lot of negative news lately
concerning waste, fraud, and abuse in the use of Government Charge Cards. We are
pleased that the audit did not uncover any such instances in the RRB's Government
Purchase Card Program, and that only one employee was identified as having misused
their Government Travel Card for personal charges. This is largely attributable to the
limited use of purchase and travel cards by the agency and effective controls put in place
by the program manager.

We agree overall with the five recommendations contained in the report. Implementing
them will improve the overall procedures and ensure appropriate training to agency card
holders. Our comments on each recommendation are as follows:

   1.	 Finalize its management plan and submit it to OMB in accordance with the

       requirements ofAppendix B to OMB Circular A-123.


The Office of Administration completed the management plan in the form of two
Administrative Circulars (OA-21 and OA-22) that were approved by the Board in March
2008. However, OMB's recent memorandum M-08-18 provided added guidance that will
require us to further update the circulars. These will be revised and submitted to OMB
with the next annual report which is due by January 31,2009.

   2.	 Establish controls to ensure that travel card applicants complete training prior to
       issuance oftravel cards; and
   3.	 Ensure that the Designated Billing Official completes the required training as
       soon as possible.




                                           13
                                                                              Appendix III

                                            -2­


The Office of Administration will ensure that training is completed prior to issuing a
travel card effective immediately. The Designated Billing Official has completed the
required training.

   4. Establish controls that provide for periodic review oftravel card usage to ensure
      appropriate usage ofthe travel cards and identifY misuse.

The new SmartPay 2 contract, which will be effective November 30,2008, will provide
for an email to be sent to the employee's supervisor/manager informing them of the use of
the card. This should provide the additional control necessary to ensure appropriate usage
of the travel cards and identify any misuse.

   5. Ensure that a cover sheet indicating that the information being sent contains

      confidential information when sending travel card applications.


A cover sheet will be used to transmit this information for travel and purchase cards
effective immediately.

Thank you again for the opportunity to comment on your findings. Please contact me if
you have any questions or require additional information.

cc: Chief Financial Officer




                                           14
                                                                         Appendix IV


                UNITED STATES GOVERNMENT                                          FORM G-1151 [1-821


                 MEMORANDUM                                RAILROAD RETIREMENT BOARD



                                                            HAY 06 008,
TO           Letty B. Jay
             Assistant Inspector General for Audit


FROM	        John M. Walter     !Jdlh. #'~

             Chief of Accounting, Treasury, and Financial Systems
             THROUGH: Kenneth P. Boehne             ~ ~ #'~
                          Chief Financial Officer /~ .,// ~


SUBJECT:	 Draft Report - Implementation of Selected Requirements for
          Government Charge Card Programs at the Railroad Retirement Board



Thank you for your memorandum of April 28, 2008, providing us an opportunity to

review and comment on the subject draft report. We have no comments on the draft

report.



cc:	 Henry M. Valiulis, Director of Administration
     Dave Miller, Finance Officer
     Bill Flynn, Executive Assistant
     Jill Roellig, Management Analyst




                                            15
